       .,'"




Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL





SURGERY IN OUTPATIENT SETTINGS:

     A FOUR- STATE STUDY





              \ Sf.RVIC'to



                             Richard P. Kusserow
                             INSPECTOR GENERAL
          "III-aoa
                                  APRIL 1992
                        OFFICE OF INSPECfOR GENERA

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95- 452 , as
amended , is to protect the integrity of the Department of Health and Human Services ' (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits , investigations , and
inspections conducted by three OIG operating components: the Office of Audit Services , the
Office of Investigations ,   and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program , and management problems, and recommends courses to
correct them.

                              OFFICE OF AUDIT SERVICES
The OIG' s Office of Audit Services (OAS) provides all auditing services for HHS , either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective   responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste , abuse , and
mismanagement and to promote economy and efficiency throughout the Department.

                              OFFICE OF INSTIGATIONS
The OIG' s Office of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid      program.


                 OFFICE OF EVALUATION AN INSPECTIONS
The OIG' s Office of Evaluation and Inspections (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress , and the public. The findings and recommendations contained in these inspection
reports generate rapid , accurate , and up- to- date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared in the Kansas City Regional Office under the direction of Don
McLaughlin , Regional Inspector General and Jim Wolf, Deputy Regional Inspector General.
Project staff:

Kansas City                                                    Headquarters

Dennis Tharp (Project Leader)                                  Cathaleen Ahern
Tim Dold
Hope Hartshorn
Deborah Walden
Julie Quirin
           "",. 



Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL





SURGERY IN OUTPATIENT SETTINGS:

     A FOUR- STATE STUDY





             \ Sf.RVIC'to



                            Richard P. Kusserow
                            INSPECTOR GENERAL
      1-

           "III-aoa
                                OEI-07-91-01470
               EXECUTIVE SUMMAR 

PUROSE
To determine the tyes of surgical procedures which are commonly performed in
outpatient settings in four States and the extent to which such outpatient settings are
subject to licensure or accreditation.



BACKGROUN
An increasing number of surgical procedures performed in freestanding outpatient
facilities has raised concerns about the appropriateness of the setting and the quality
of care. Since   many procedures are no longer performed in hospitals , consumers need
to be confident that they will receive adequate quality of care in an outpatient setting.

This inspection is a companion to a related study conducted by the Office of Inspector
General entitled " Surgery in Outpatient Settings: Forms of Oversight" (OEI- 07- 91­
00690). In that report , we identified the forms of oversight in place in each State.
Both studies were requested by the Subcommittee on Regulation , Business
Opportunities and Energy of the House Committee on Small Business.

METHODOLOGY

We chose four States on a judgmental , non-random basis. The four States selected
include California , Texas , Ohio , and Maryland. We then selected 160 facilities from
the directories for those areas. We targeted non- Medicare certified facilities that
perform risk-associated procedures. We also targeted facilities which advertised
surgery or emergency servces. We conducted 40 on-site visits consisting of intervews
and a tour of the facilities (10 per State). We conducted telephone intervews with
representatives from another 120    facilties (30 per State).


FIINGS
Thireen Perent of the Faciiti We Sureyed        Condt Procedes      Which We Clasi as
High-RilC'

Thirteen percent of the facilities conduct procedures we classify as " high- risk"
procedures employing general anesthesia or intravenous sedation.

Over Thee-Fourhs of the Sureyed      FaciAre Neither Licensed Nor Accredited; A
Third of the FaciitPerforming "High-RilC' Procedes Are Neither Licened Nor
Accreded
Of the 160   facilities in our sample , 131 are neither licensed nor accredited. Of   the 21
facilties performing procedures we have classified as " high-risk " 7 (33 percent) are
neither licensed nor accredited.



Medical Emeen       Eqpmet An Procedes Are Not Uniform Availble
Over half of the sampled facilities have no written medical emergency procedures or
could not produce them during an on-site visit. Eight percent of the sampled facilities
have no life support/resuscitation equipment available.

Some   Faci Inaccuately Adverted Surer or Emeen Seres
Some facilties in our sample advertised surgery or emergency servces. However
when reviewed , these servces were seldom offered on-site.

RECOMMNDATION

States Shoul   Exmin the Licene Ru to Ense Qualit of "High-RilC' Procedes
Perorm in Outpatit Settgs
States nationwide should examine their rules for licensure and procedures for
oversight and make any necessary changes to ensure the quality of surgery performed
in outpatient settings , particularly in those facilties performing " high-risk" procedures.
              . . . . . . . . ...........................................
                                . . . . . . . . ..................
                                                . . . . . . . . . . . . ....
                                                                          . . .........
                                                                              ...,                            . ... ... ... ... ... ... ... ... ... ... ...
                   . . . . . . .. .. ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ..                                           . ................... .. .. ... .. .. .. ..
                                                                                                                                                                                                    .




                     TABLE OF CONTENTS


EXECUSUMY
INODUCfON.................................................
  Puse.............. .......... 

    Backgound

    Methodology                                                                                                                                 ...............2
FIINGS                                                                                                                            ...................4
    Theen Percent of the Facities We Sureyed                                                                Conduct
    Procdures Whch We Oassif as ' 'Hgh- Rik'' . . . . . . . . . . . . . . . . . . . . . . . . . . 4

    Over Thee-Fourhs of the Sureyed Facities Are

    Neither Licensed Nor Accedited; A Thd of the

    Facities Performg ' 'Hgh- Rik'' Procures Are

    Neither Licensed Nor Accedited


    Medica Emergency Equipment And Procdures Are Not

    Uniorm Avaable. .                                                                                                                                                   ........8
    Some Facities Inaccately Advertd Surgery                                                                  or
    Emergency Servces                                                                                                                                            ..........9
RECOMMNDAlll0N ............................................


APPENDIX A . . . . . . . .                                                                                                                                           . . . . . . . A­
                           INTRODUCTION

PUROSE
To determine the tyes of surgical procedures which are commonly performed in
outpatient settings in four States and the extent to which such outpatient settings are
subject to licensure or accreditation.



BACKGROUN
This inspection is a companion to a related study conducted by the Office of Inspector
General entitled " Surgery in Outpatient Settings: Forms of Oversight" (OEI- 07-91­
00690). In that report , we identified the forms of oversight in place in each State.
Both studies were requested by the Subcommittee on Regulation , Business
Opportunities and Energy of the House Committee on Small Business.

Th   Shif Toward    Ouatit Settgs
Over the past ten years , there has been a visible shift in the health care marketplace.
Many risk-associated procedures ! traditionally conducted only in hospitals on an
inpatient basis are now performed in freestanding facilties. 2 This trend is expected to
continue.

Surgical volume was approximately 2 milion in 1989 and is expected to grow to 3.
milion procedures by the end of 1992. The Joint Commission on Accreditation of
Health Care Organizations (JCAHO) estimates that by 1995 , 65 percent of all surgical
procedures will be performed outside the hospital. Several factors have contributed to
this shift.

        Advances in technology, anesthesia , and surgical techniques have increased the
        number of procedures that can be safely performed on an outpatient basis.

        Outpatient procedures are usually less expensive and more convenient for the
        patient.


        Risk-associated Procedures: medical procedures involving the prior and/or
        concurrent administration of general , spinal , regional or local anesthesia or of
        sedation and/or analgesia that is sufficient to compromise a patient s protective
        reflexes.

        Freestanding Facilities: medical facilties where physicians conduct risk-
        associated procedures on an outpatient basis.

       Health Care Competition Week.      Vol. 7 ,   No. 28 ,   1990.
        Medicare and some private insurance companies provide incentives for risk-
        associated procedures performed on an outpatient basis by authorizing payment
        of facility fees and other physician   incentives for outpatient surgery.


Type of Freestanding   Faci
Freestanding facilties vary greatly. Due to increased technology and specialization
many tyes of facilties conduct a variety of risk-associated procedures. These facilities
include , but are not limited to , physician s offices , ambulatory surgical centers , cancer
treatment centers , emergency/minor emergency centers , abortion clinics
cosmetic/plastic surgery centers , pain treatment centers , and diagnostic imaging
centers.

Form of Overght

The principal forms of oversight in place for outpatient facilities which perform
surgery are licensure , certification , and accreditation. Other forms of oversight are
provided by peer review organizations , insurance companies , and professional medical
organizations. For a complete discussion of the forms of oversight in place in each
State , see our companion report "Surgery in Outpatient Settings: Forms of Oversight"
(OEI- 07- 91- 00690).

METHODOLOGY

We selected four States on a judgmental , non-random basis. The four States selected
include California , Texas , Ohio , and Maryland. We selected California as a State that
has comparatively extensive requirements for regulation of freestanding facilties and
Texas , Maryland , and Ohio as States where regulation is less extensive. We
determined this from data collected for the inspection entitled "Surgery in Outpatient
Settings: Forms of Oversight" (OEI- 07- 91- 00690).

We selected the largest metropolitan area in each State to conduct on-site visits to 10
different facilities. We selected these facilties from the metropolitan areas
directories. We targeted non- Medicare certified facilties that perform risk-associated
procedures. We also targeted facilties which advertised surgery or emergency
servces. Facility tye was a consideration in selection of the sample as we sought
facilities representing a variety of specialties. (For a list of sampled facilities by tye
see Appendix A).

While visiting each facility, we intervewed either the office manager, physician
registered nurse (RN), or other person familar with the specific operation of the
facility. We asked questions addressingthe tyes of procedures performed in the
facilty. We also inquired about the regulation of the facility, staffing of the facility,
and medical emergency equipment and procedures. Mter completing the intervew
we toured the facility to observe emergency equipment and procedures that the facility
had available. We also gathered information about the physical layout of the facility,
advertising strategies , and general cleanliness.

To complete the sample ,   we selected an additional 30 facilties from each of the four
States in the sample. We selected these facilities from the metropolitan areas
directories. Our goal was to target facilities that perform risk-associated procedures.
We conducted telephone intervews with either the office manager , physician , or RN
of these facilities. For consistency, we used identical intervew guides for on-site visits
and for telephone intervews.

We conducted our review in accordance
issued by the President' s
                                            with the   Int Standrds for Inspectins
                             Council on Integrity and Efficiency.
                                  FINDINGS

Thireen Perent of the    Faci We Sureyed Condt Predes Which We Clasi as
High-RilC'

We asked the representative(s) from each facilty about the procedures they perform
in their facilty and whether these procedures require the use of any form of
anesthetic. For purposes of this study, anesthesia is an indication of the risk
associated with a procedure. We classify " high- risk" as those procedures involving
general anesthesia or intravenous (IV) sedation.



The following chart provides the percentage of the sampled facilities determined by
the tye of anesthetic.


              Sampled Facilities
                     Anesthesia Used
                                                         Legend
                                                       Lol Anesthesa
                                                       IV Seation
                                                       Geneal Anesthsia


                                                       No Aneshesa


                                             (9%)




Thirteen percent of the facilities conduct procedures that utilze IV sedation (9
percent) or general anesthesia (4 percent). Seventy-eight percent of the     facilties use
local anesthesia (low risk), and 9 percent use no anesthesia.

Single specialty and multi-specialty physician s offices have the largest variance in the
tyes of procedures performed in the facility. Intervewees mentioned 22 different
procedures they conduct in their freestanding facilities. Usually, we found that they
utilize local anesthetia during these procedures.

In the remaining facilties the physician did not perform such a large variance of
procedures. This is primarily due to the increased   specialization of the other   facility
tyes. Table 1 on the following page presents the facilty tye ,      examples of the highest
risk procedures performed in any of the particular facilties , and the tye of anesthesia
used for that procedure.
                                              Table 1



      TYE OF PROCDUR PERFORMD IN VAROUS FACILIT

      FACILIT TYE                       PROCDUR                           ANTHTIC
  Ambulatory Surgical Ctr.        Laparoscopy                     General
  Abortion Clinic                 Abortion                        General
  Cosmetic Surgery Ctr.           Face Lift                       General
  Ophthalmologist                 Cataract Surgery                IV Sedation/Lcal
  Dermatologist                   Dermabrasion                    IV Sedation/Lcal
 Pain Treatment Ctr.              Nerve Block                     IV Sedation/Lcal
 Physician s Office               Sigmoidoscopy                   IV Sedation

 Podiatrist Office               Toenail Removal                  Local
 Multi-specialty Office          Repair Lacerations               Local
 Emergency Ctr.                  Repair Lacerations               Local
 Cancer Treatment Ctr.           Bone Marrow Biopsy               Local
 Diagnostic Imaging Ctr.         Breast Biopsy                    Local
 Kidney Dialysis Ctr.            Needle Insertion                Local
 Birthing Ctr.                   Child Birth                     None

Of the 21 facilities performing " high-risk" procedures , 7 of the facilities use general
anesthesia. These facilities include ambulatory surgical centers , abortion clinics , and
cosmetic and plastic surgery centers. Fourteen facilties use         sedation.

The sampled facilities also varied in who administered anesthesia when it is necessary.
This variance was due to the tye     of procedure and the tye of anesthetic        utilzed.
the seven sampled facilities that perform " high-risk" procedures utilzing general
anesthesia , three use a Certified Registered Nurse Anesthetist (CRNA) and four use
an anesthesiologist. Of the 14 sampled facilties that perform " high- risk" procedures
utilizing IV sedation , five facilities use physicians , three use registered nurses , five use
CRNA' , and one uses an anesthesiologist to administer the IV sedation.

We found that the State Nursing Boards in the three States conducting procedures
utilizing IV sedation administered by an RN were aware of this occurrence. We found
that these States allowed an RN to administer IV sedation under a physician s order
and under the supervsion of a physician. However, an RN performing this procedure
presents a potential vulnerability in quality of care if the nurse has not received
adequate training and if there is no emergency equipment on-site. Only one of the
facilities utilizing an RN to administer IV sedation is licensed. None of the three
facilities are accredited. Two of the three facilties had no emergency procedures , with
one of the two stating they had procedures, yet unable to produce them on-site.

We found that the three most common procedures utilzing general anesthesia were
abortions , face lifts , and breast augmentation procedures. We found that the three
most common procedures utilzing IV sedation were cataract surgeries , abortions , and
facial reconstruction procedures. The graphs below show the tye of anesthesia used
and who administers the anesthesia in those facilities performing " high- risk"
procedures.




         Anesthesia Used and Administered
                          High Risk" Facilties



 General Anesthesia                             IV Sedation
              (57%)                 Leend             (36%)                     Leend
                                   Aneslois                                    Anesesiois
                                ii C.                                       ii C.


                                                                    (7%) I& Phsician
                                                                               Regisere nurse



                                                                    (21%)




                                                  (36%)
Over Thee-Fourhs of the Sureyed       Faci
                                         Are        Nei Licened Nor Accredited; A
Thir of the  Faci  Perorming "High-RilC'        Predes Are Neihe Licened Nor
Accredit
Of the 160 facilties in our sample , 131 are neither licensed nor accredited. A large
portion of these facilties are physician offices , which have tyically been left
unregulated by the States. Of the 21 facilities performing procedures we have
classified as " high-risk " 7 (33 percent) are neither licensed nor accredited. These
include an ambulatory surgical center , an abortion clinic , a plastic surgery center , a
pain treatment center ,   and three physician offices.

For the purposes of this study, we considered only medical licenses as criteria for
licensed medical facilities. We found that many facilities are licensed by a
governmental entity (e. , city, county) as a business. These licenses are no different
for a medical facilty than for a restaurant , hardware store , or barber shop. In our
analysis , a business license was not considered licensure as a medical facility.
Likewise , individual physician licensure should not be mistaken for facility licensure.

Twelve of 21 (57 percent) of the sampled facilties that conduct " high- risk" procedures
requiring IV sedation or a general anesthetic are not licensed. These facilities include
six plastic surgery centers , three physician offices , one abortion clinic, one ambulatory
surgical center, and one pain treatment center.

Also , three- fourths (76 percent) of these 21 facilities are not accredited. These
facilities are four abortion clinics , three physician offices , three ambulatory surgical
centers , two plastic surgery centers , two ophthalmologists , one dermatologist , and one
pain treatment center. All of the accredited facilties performing these "high-risk"
procedures are plastic surgery centers.

Even when facilties are licensed , standards and monitoring vary. Of the licensed or
accredited facilities , 59 percent of the licensed facilties do not have specific
requirements for staff, equipment , or the physical facilty. Six- five percent of the
licensed facilities have not been inspected other than for their initial licensure. Only
about one- third (35 percent) of the licensed facilities are inspected regularly.


Facilities which receive accreditation are generally reviewed at least every two or three
years by an on-site reviewer. Accredited facilties must meet certain criteria in many
areas such as emergency procedures , equipment standards , operational efficiency, and
medical and educational standards of the staff to obtain and maintain accreditation
status.

The Office of Inspector General companion report to this study entitled "Surgery in
Outpatient Settings: Forms of Oversight" (OEI- 07- 91- 00690) found that many facilties
are not subject to licensure by the States and that physician s offices have little or no
formal oversight. The report also found that the States are not consistent in their
regulation of freestanding medical facilties.   These findings are substantiated by data
from this study.

Medal Emeen Eqpmet An Predes Are Not Uniorm Availble
Medical emergency equipment and procedures vary greatly by facilty. Over half of
the sampled facilties (82 of 160) have no written medical emergency procedures or
could not produce them during an on-site visit.

Eight percent (13 of 160) of the sampled facilties have no life support/resuscitation
equipment available. One of the physician offices performing procedures requiring
sedation did not have emergency equipment. Some of these facilties mentioned local
medical emergency " 911" servces within minutes and access to a hospital across the
street. Table 2 provides a summary of the facilities with no emergency equipment
on-site.
                                        Table 2



     SUMMAY OF 13 FACILITIES WITH NO EMERGENCY EQUIPMENT

      FACILITY TYPE             ANESTHETIC USED                     OVERSIGHT
      Physician s Office                 Local                          None
      Physician s Office                 Local                       Accredited
      Physician s Office                 Local                          None
      Physician s Office              IV Sedation                       None
      Physician s Office                 Local                          None
      Physician s Office                 Local                          None
      Physician s Office                 Local                          None
       Podiatrist Office                 Local                          None
     Emergency Center                    Local                          None
      Cosmetic Surgeon                   Local                          None
      Cosmetic Surgeon                   Local                          None
           Dermatologist                 Local                          None
    Pain Treatment Ctr.                  None                           None

Our review entailed visiting 40 of the 160 medical facilities on-site. We conducted the
remaining 120 intervews over the telephone. Tryng to verify responses to the
telephone intervew question "whether a facilty has written medical emergency
                                      , "




procedures " we asked several of the facilties which had procedures to forward them
to us. Of those facilties stating that they had procedures , we received only one
response.

Regarding preparedness for emergency response , 19 percent (31 of 160) of the
medical facilities employ at least one physician who does not have admitting privileges
at a local hospital. These physicians either prefer not to admit patients to hospitals or
they have a network of physicians to whom they refer patients for admission. Also , a
few of these physicians are retired , working part- time only.

Some   Faci Inaccutely Advered Surer or Emeen Seres
We found that some facilities in our sample advertised surgery or emergency servces.
However , when we visited these facilities , these tyes of servces were seldom offered
on-site.

In conducting our study, we called providers which listed emergency and surgical
servces in the metropolitan areas '  directories. However , when we spoke with the
facility representatives , we found that most of the facilties were performing minor
procedures with local anesthesia only. Most medical facilities are not performing
 high- risk" medical procedures , yet some of the facilties advertise performing major
surgical procedures.

The following examples are tyical of what we found at some of the outpatient
facilities. At one facilty, a sign on the exterior of the physician office building
advertised in-office surgery. During the intervew, we learned that the physician no
longer performed outpatient surgery in his office. The outdated advertisement
remained posted , although the physician stopped performing in-office surgery years
ago.

At a single specialty physician office facilty which advertised "EMERGENCY CARE
personnel informed us that the medical emergency kit (" crash cart" ) was within
immediate access. Upon a tour of the facilty, staffers had to move several boxes of
supplies from a back closet to retrieve the emergency kit. Also , at another facility, we
asked to see the facilty' s medical emergency kit. The physician produced a small
briefcase then opened it up and said        , that s not it. . . I think it is back there in
another room. " The physician did not produce the emergency kit.
                      RECOMMENDATION

States Shoul Exmi the Licene Ru to Ense Quli of "High-RilC' Procedes
Perorm in     Outi Settgs
States nationwide should examine their rules for licensure and procedures for
oversight and make any necessary changes to ensure the quality of surgery performed
in outpatient settings , particularly in those facilties performing " high- risk" procedures.
                          APPENDIX A


                    SAMLED FACILIT BY TYE

Single Specialty Physician   s Office
Multi- Specialty Physician s Office
CosmeticlPlastic Surgery Center
Emergency/Mnor Emergency Center
Abortion Clinic
Podiatrist Office
Ophthalmologist
Dermatologist
Pain Treatment Center
Ambulatory Surgical Center
Cancer Treatment Center


Diagnostic Imaging Center
Kidney Dialysis Center
Birthing Center
TOTAL                                   160
